OIG Audit Report GR-30-99-012
National Association of Drug
	Court Professionals
Audit Report GR-30-99-012
September 30, 1999
Office of the Inspector General

Executive Summary
The Office of the Inspector General, Audit Division, has completed an audit of cooperative agreement numbers  97-DC-VX-K001, 98-DC-VX-K005 and  98?DC-VX-K006 awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), to The National Association of Drug Court Professionals (the grantee).  The grantee received awards of $1,485,076 to provide training and information services, and planning and implementation technical assistance to drug court grantees.

	Our audit concentrated on, but was not limited to, the period of January 1, 1997 through May 31, 1999.  We were unable to review expenditures for the period January 1, 1997 through May 31, 1997 for cooperative agreement           97-DC-VX-K001, because a detailed general ledger for expenditures for this period was not available.  Therefore, we were not able to select specific transactions from this period.  As a result, we increased the number of transactions reviewed for the remaining  period of the grant.

We reviewed transactions to determine whether costs were allowable, reasonable, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  We also reviewed requests for reimbursement, budget deviations, and the accuracy and timeliness of financial and progress reports.

	In brief, our audit determined that the grantee submitted  progress reports that accurately reflected grant activity and implemented the activities planned to accomplish the objective of the grants; but:

Charged unallocable and unsupported costs totaling $104,187 to the grants, which consisted of salary and fringe benefits expenses, travel expense which included two instances of duplicate payments, supplies expense , and contractual expenses;

	Submitted inaccurate financial status reports which underreported actual expenditures incurred;

	Did not always submit required progress reports on a timely basis; and

	Incurred excess budget deviations totaling $43,955 

These items are discussed in detail in the FINDINGS AND RECOMMENDATIONS section of the report.  Our SCOPE AND METHODOLOGY appear in Appendix II.